           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




  ADMINISTRATIVE COSTS CLAIMED
    BY THE FLORIDA DIVISION OF
   DISABILITY DETERMINATIONS


     March 2007   A-15-06-16127




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      March 23, 2007                                                         Refer To:

To:        Paul D. Barnes
           Regional Commissioner
            Atlanta

From:      Inspector General

Subject:   Administrative Costs Claimed by the Florida Division of Disability Determinations
           (A-15-06-16127)


           OBJECTIVE
           The objectives of our audit were to evaluate the Florida Division of Disability
           Determination’s (FL-DDD) internal controls over the accounting and reporting of
           administrative costs, determine whether costs claimed by the FL-DDD were allowable
           and properly allocated and funds were properly drawn. Our audit included the
           administrative costs claimed by the FL-DDD during Fiscal Years (FY) 2004 and 2005.

           BACKGROUND
           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), 1 provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, 2 provides benefits to financially needy individuals
           who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies for the
           development of disability claims under the DI and SSI programs. Disability
           determinations under both DI and SSI are performed by disability determination
           services (DDS) in each State, Puerto Rico, and the District of Columbia in accordance
           with Federal regulations. 3 In carrying out its obligation, each DDS is responsible for
           determining claimants’ disabilities and ensuring that adequate evidence is available to
           support its determinations. To assist in making proper disability determinations, each

           1
               42 U.S.C. § 401, et seq.; 20 C.F.R. Part 404.
           2
               42 U.S.C. § 1381, et seq; 20 C.F.R. Part 416.
           3
               20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – Paul D. Barnes


DDS is authorized to purchase medical examinations, x-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources. 4

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments (ASAP) system to
pay for program expenditures. Funds drawn down must comply with Federal
regulations 5 and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act of 1990. 6

An advance or reimbursement for costs under the program must comply with Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments. At the end of each quarter of the fiscal year, each DDS
submits a State Agency Report of Obligations for SSA Disability Programs (SSA-4513)
to account for program disbursements and unliquidated obligations. 7 The Form
SSA-4513 reports expenditures and unliquidated obligations for personnel service
costs, medical costs, indirect costs, and all other nonpersonnel costs.

The Florida Department of Health (FL-DOH) is the FL-DDD’s parent agency. The
FL-DDD central office is located in Tallahassee, Florida. The FL-DDD also has branch
offices in Jacksonville, Miami, Orlando, Pensacola, and Tampa in Florida.

RESULTS OF REVIEW
Generally, the FL-DDD had effective controls over the accounting and reporting of
administrative costs; costs claimed by the FL-DDD were allowable and properly
allocated; and funds were properly drawn. However, improvements are needed in the
area of medical costs. Our review of administrative costs disclosed that the FL-DDD
claimed consultative examination (CE) costs of $1,055,629 that exceeded the highest
allowable rate paid by Federal or other agencies in the State for the same or similar
type of service. Additionally we found for FY 2005 the FL-DDD had overdrawn SSA
funds totaling $1,323,475.




4
    20 C.F.R. §§ 404.1624, 416.1024.
5
    31 C.F.R. § 205.1 et seq.
6
    Pub. L. No. 101-453, 104 Stat. 1058, codified at 31 U.S.C. § 6501.
7
  SSA, Program Operations Manual System (POMS), DI 39506.200 B.4, “Unliquidated obligations
represent obligations for which payment has not yet been made. Unpaid obligations are considered
unliquidated whether or not the goods or services have been received.”
Page 3 – Paul D. Barnes


CONSULTATIVE EXAMINATION COSTS

For FYs 2004 and 2005, we found that in certain instances the FL-DDD reimbursed
medical providers at payment rates in excess of the maximum rates paid by Federal or
other agencies in the State. 8 The related excess CE payments totaled $1,055,629.

Federal regulations require that each State determine the payment rates for medical or
other services necessary to make determinations of disability. The rates may not
exceed the highest rate paid by Federal or other agencies in the State for the same or
similar types of service. 9 The State is responsible for monitoring and overseeing the
rates of payment for medical and other services to ensure the rates do not exceed the
highest rate paid by Federal or other agencies in the State. 10

We compared the 2004 Calendar Year (CY) Medicare fee schedule 11 with the fees paid
by the FL-DDD for selected medical examinations dated January through
September 2004. We determined FL-DDD reimbursed physicians $596,929 in excess
of the 2004 Medicare rates. FL-DDD staff stated the basis for setting its CE fee
schedule was the 1991 Medicare fee schedule rates. In August 2004, the FL-DDD
updated its medical fee schedule to conform to the CY 2004 Medicare fee schedule.
This schedule was approved by the SSA Atlanta regional office. However, we cannot
determine whether SSA gave approval to the fee schedule prior to the revised
August 2004 medical fee schedule.

For our CY 2005 comparison, we selected CE authorizations dated January through
September 2005. We found for FY 2005, the FL-DDD continued to rely on its revised
August 2004 medical fee schedule, although Medicare revised some fee amounts for
CY 2005. As a result, the FL-DDD paid $458,700 in excess CE payments. For the
FL-DDD to comply with POMS for CEs incurred after January 1, 2005 and later, the
FL-DDD needed to lower its fee amounts to the 2005 Medicare fee level. FL-DDD did
not revise its fee schedule; instead it continued to charge fees based on its 2004
medical fee schedule. According to the FL-DDD staff, they did not revise the fees
because they would lose a number of medical vendors, which are necessary for making
disability determinations.




8
 Medicare fee schedules are used by the FL-DDD in setting the maximum cost allowed for medical costs
billed by providers.
9
    20 C.F.R. §§ 404.1624 and 416.1024.
10
     20 C.F.R. §§ 404.1519k(c) and 416.919k(c).
11
     Medicare fee schedules are issued on a CY basis.
Page 4 – Paul D. Barnes


Based on the POMS, 12 SSA should work with the FL-DDD to determine if approval
would have been granted to charge CE fees in excess of Medicare rates for FY 2004
and 2005. If approval would not have been granted then SSA should take appropriate
action, such as, instructing the FL-DDD to refund the excess CE payments and limit
future CE rates of payment. Further, SSA should ensure all future revisions to CE fees
in excess of the current Medicare fee rates receive approval before implementation.

CASH MANAGEMENT

According to Federal regulations “A State and a Federal Program Agency must limit the
amount of funds transferred to the minimum required to meet a State’s actual and
immediate cash needs.” 13

In FY 2005, the FL-DDD overdrew $1,323,475 in excess of its disbursements as
reported on Form SSA-4513 for the period ended September 30, 2006. Treasury ASAP
cash management records indicated the FL-DDD had withdrawn $92,092,767. The
SSA-4513 disbursements were $90,769,292.

FL-DDD overdrew funds because its indirect cost rate was retroactively adjusted in
July 2006. Consequently, this adjustment decreased FL-DDD’s indirect costs for the
period July 2004 through June 2006. Subsequent to our September 30, 2006 analysis,
the FL-DDD restored the overdrawn funds to ASAP.

CONCLUSION AND RECOMMENDATIONS
Our review of administrative costs generally found the FL-DDD had effective controls
over the accounting and reporting of administrative costs. Further, we found costs
claimed by the FL-DDD were allowable and properly allocated, and funds properly
drawn. However, we did find that in certain instances, the FL-DDD’s medical payment
rates exceeded the highest rate paid by Federal or other agencies in the State, resulting
in excess payments of $1,055,629 for FYs 2004 and 2005. Additionally, we found the
FL-DDD experienced a decrease in indirect cost which caused an overdraw of SSA
funds in FY 2005 by $1,323,475. Subsequent to our fieldwork, FL-DDD restored the
overdrawn funds to ASAP.




12
  DI 39545.625B.4 – If the DDS has difficulty obtaining specific examinations or tests under options DI
39545.625B.1 or DI 39545.625B.2, the DDS will submit a written waiver request to the Regional Office
Disability Program Administrator.
13
     31 CFR Part 205.11(b).
Page 5 – Paul D. Barnes


We recommend SSA:

   1. Work with the FL-DDD to determine if approval would have been granted to
      charge CE fees in excess of Medicare rates for FY 2004 and 2005. If approval
      would not have been granted then SSA should take appropriate action, such as,
      instructing the FL-DDD to refund the excess CE payments and limit future CE
      rates of payment.

   2. Ensure FL-DDD receives approval for CE fees in excess of current Medicare fee
      rates before implementation.

AGENCY COMMENTS
Although the SSA did not indicate a concurrence of the first recommendation, the
information they provided indicates it carried out the intent of our recommendation, and
ultimately has decided it would have approved the use of CE fee levels in question to
maintain a number of medical vendors. SSA agreed with the second recommendation.
The full text of the Agency’s comments is included in Appendix D.

STATE AGENCY COMMENTS
The FL-DDD concurred with both recommendations. The full text of the State Agency’s
comments is included in Appendix E.

OIG RESPONSE
We appreciate the comments received from SSA and FL-DDD and believe the
responses and planned actions adequately address our recommendations. However,
regarding Recommendation 1, in the future the FL-DDD should receive approval to use
higher rates from SSA prior to implementation.




                                            Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Florida Division of Disability Determinations Medical Costs
APPENDIX D – Agency Comments
APPENDIX E – State Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms
ACT        Social Security Act
ASAP       Automated Standard Application for Payment
CE         Consultative Examination
C.F.R.     Code of Federal Regulations
DDS        Disability Determination Services
DI         Disability Insurance
FLAIR      Florida Accounting Information Resource System
FL-DDD     Florida Division of Disability Determinations
FL-DOH     Florida Department of Health
FY         Fiscal Year
I Levy     I Levy Case Processing System
OMB        Office of Management and Budget
P.L.       Public Law
POMS       Program Operations Manual System
SSA        Social Security Administration
SSI        Supplemental Security Income
Treasury   Department of the Treasury
U.S.C.     United States Code
                                                                          Appendix B

Scope and Methodology
SCOPE
To achieve our objectives, we:

•   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System and other
    criteria relevant to administrative costs claimed by the Florida Division of Disability
    Determinations (FL-DDD) and the draw down of SSA funds.

•   Interviewed staff and officials at the FL-DDD, Florida Department of Health, SSA’s
    Atlanta Regional Office and Headquarters Finance Office.

•   Evaluated and tested internal controls regarding accounting, financial reporting, and
    cash management activities.

•   Reconciled State accounting records to the administrative costs reported by the
    FL-DDD on the State Agency Report of Obligations for SSA Disability Programs
    (SSA-4513) for Fiscal Years (FY) 2004 and 2005.

•   Examined specific administrative expenditures (personnel, medical services, and all
    other nonpersonnel costs) incurred and claimed by the FL-DDD for FYs 2004 and
    2005 on the SSA-4513. We used statistical sampling to select expenditures to test
    for documentation of the medical services, personnel, and all other nonpersonnel
    costs.

•   Examined and recalculated indirect costs claimed by the FL-DDD for FYs 2004 and
    2005.

•   Compared the amount of SSA funds drawn for support of FL-DDD operations to the
    cost records as reported on SSA-4513.

We determined the data provided by FL-DDD used in our audit was sufficiently reliable
to achieve our audit objectives. We assessed the reliability of the data by reconciling it
to the costs claimed on the SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files. Additionally, we relied on the
FL-DDD I Levy Case Processing System (I Levy) records for our consultative
examination (CE) analysis. We believe for this analysis, the I-Levy records were
sufficiently reliable. We performed our audit work at the FL-DDD central office in
Tallahassee, Florida, along with limited work in the Pensacola, Florida branch office.
Work was also conducted in our Office of Audit at SSA Headquarters. We conducted


                                               B-1
fieldwork from July 2006 through November 2006. Our audit was conducted in
accordance with generally accepted government auditing standards.

METHODOLOGY
Our sampling methodology encompassed the four general areas of costs reported on
the SSA-4513 (1) personnel, (2) medical, (3) indirect, and (4) all other nonpersonnel
costs. We obtained electronic records that supported the personnel, medical, and all
other nonpersonnel costs for FYs 2004 and 2005 for use in sampling. These records
were obtained from the Florida Accounting Information Resource system (FLAIR) used
by the State of Florida and the FL-DDD for the preparation of the SSA-4513. Analytical
work was conducted for the indirect costs (see the indirect cost section below). We
obtained I Levy records for our comparison of CE fees per the FL-DDD fee schedule to
the Medicare fee schedules for Calendar Years 2004 and 2005.

Personnel Costs

We randomly selected 1 pay period in the most recent year under review. We then
selected a random sample of 50 regular employees. We tested FL-DDD payroll records
to ensure it correctly paid employees and adequately documented these payments.

For medical consultant costs, we selected 1 pay period in the most recent year under
review. We then selected a random sample of 50 consultants. We verified that the
medical consultants were paid in accordance with the approved contract.

Medical Costs

We sampled 100 items (50 items from each FY) using a stratified random sample of
medical costs based on the proportion of medical evidence of record and consultative
examination costs to total medical costs claimed. Additionally, we conducted analytical
work using I Levy data records to determine if the FL-DDD rates exceed the highest rate
paid by Federal or other agencies in the State for the same or similar types of service.

Indirect Costs

We calculated the FL-DDD indirect costs for FYs 2004 and 2005 by applying the
federally approved rates 1 to the payroll cost bases (direct salaries and wages including
all fringe benefits). For the SSA-4513 reports, for the period ended December 31, 2005,
we applied the final rate of 7.7 percent for the period October 1, 2003 to June 30, 2004
and the provisional rate 2 of 8.8 percent for the period July 1, 2004 to
September 30, 2005. On July 1, 2006, the provisional rate of 8.8 percent was revised to


1
  Rates approved by the US Department of Health and Human Services (Federal cognizant agency) for
the State Department of Health (the parent agency of the FL-DDD).
2
    Provisional rate – proposed rates based on projected direct and indirect costs for the applicable period.


                                                        B-2
a final rate of 5.1 percent. As a result, we recalculated the FY 2004 and 2005 indirect
costs and compared our results to the FL-DDD revised SSA-4513 reports as of
June 30, 2006.

All Other Nonpersonnel Costs

We selected a stratified random sample of 100 items (50 items for each FY) from the All
Other Non-personnel Costs category (except for occupancy). Before selecting the
sample items, we stratified the transactions in the nine cost categories. We then
distributed the 50 sample items for each year between categories based on the
proportional distribution of the costs. We conducted a 100 percent review of the DDS
occupancy costs for 1 randomly selected month in FYs 2004 and 2005. Also, we
reviewed the occupancy costs for the final month contained in our electronic data files
for FYs 2004 and 2005. 3




3
 For FY 2004, occupancy costs through June, 2005 were included in our electronic files. For FY 2005
occupancy costs through November 30, 2005 were included in our electronic data files.


                                                   B-3
                                                                                       Appendix C

Florida Division of Disability Determinations
Medical Costs
            FY 2004 Consultative Examinations (CE) Cost and Variance to Medicare Fee Schedule
                                        (Starting January 1, 2004)

                           Florida Div. of
                             Disability
                           Determinations
                              (FL-DDD)          Record                      Medicare Fee         Excess
            Charge Area        CE Cost          Number                        Amount            Payment

                 1               $434,319            4,657                       $348,122          $86,197
                 2               1,624,135          18,002                       1,302,405         321,730
                 3                 600,834           6,122                         482,307         118,527
                 4                 326,706           3,471                         256,231          70,475

Total all Charge Areas          $2,985,994          32,252 *                    $2,389,065        $596,929

* The review was conducted with less than 100% of the I Levy CE records



                          FY 2005 CE Cost and Variance to Medicare Fee Schedule
                                        (Starting January 1, 2005)

                                 FL-DDD CE       Record             Medicare Fee              Excess
              Charge Area           Cost         Number               Amount                 Payment
                1 & 2*              $567,909       5,045                $260,864               $307,045
                   3                  200,170      2,103                  99,346                100,824
                   4                1,081,164      8,017               1,030,333                 50,831

Total All Charge Areas              $1,849,243     15,165                 $1,390,543           $458,700
           *Starting in FY 2005 charge area 1 & 2 were merged.
                  Appendix D

Agency Comments
                               SOCIAL SECURITY
                                                    Refer To: K. Killam 2-5727

MEMORANDUM

Date:      March 7, 2007

To:        Inspector General

From:      Regional Commissioner
           Atlanta

Subject: Administrative Costs Claimed by the Florida Division of Disability
         Determinations (A-15-06-16127)

Thank you for the opportunity to comment on the validity of the facts and
reasonableness of the recommendations presented in your draft report of the
Florida Division of Disability Determinations (FL-DDD). We believe that the
OIG Audit, regarding internal controls over the accounting and reporting of
administrative costs, the proper drawdown of funds and whether costs
claimed by the FL-DDD were allowable and properly allocated, was detailed
and thorough.

Specifically, our comments on the two recommendations are as follows:

      1. Recommendation: Work with the FL-DDD to determine if approval
         would have been granted to charge CE fees in excess of Medicare
         rates for FY2004 and 2005. If approval would not have been
         granted, then SSA should take appropriate action, such as
         instructing the FL-DDD to refund the excess CE payments and
         limit future CE rates of payment.

         It is not clear whether SSA gave approval to the FL-DDD for the fee
         schedule change prior to the implementation of the revised 2004
         medical fee schedule. However, the ability to obtain CE’s is a vital part
         of the process of making disability determinations and SSA agrees
         with the FL-DDD that the fees had to be revised in order to maintain a
         number of medical vendors. Accordingly, approval would have been
         granted to the FL-DDD to charge CE fees in excess of Medicare rates
         for FY 2004 and 2005. No further action is required on this
         recommendation.




                                           D-1
    2. Ensure FL-DDD receives approval for CE fees in excess of current
       Medicare fee rates before implementation.

       We agree with this recommendation. The FL-DDD and the Atlanta
       Regional Office staff have worked together to implement the 2006
       Medicare Part B Physician and Non-Physician Fee Schedule and the
       2006 Medicare Clinical Laboratory Fees. These fees were effective
       January 1, 2007. No further action is required on this recommendation.

    Please direct any questions you may have to either Josie Irwin at
    (404) 562-1407 or Karen Killam at (404) 562-5727.

.
                                         Paul D. Barnes

cc: James McHargue
    Paul Buehler
    Josie Irwin




                                           D-2
                        Appendix E

State Agency Comments
                                                                         Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Victoria Vetter, Director, Financial Audit Division, (410) 966-9081

   Mark Meehan, Acting Audit Manager, (410) 966-7147

Acknowledgments
   Sig Wisowaty, Auditor-in-Charge
   Brian Karpe, Audit Manager
   Steven Sachs, Senior Auditor
   Sandra Westfall, Program Specialist
   Florence Wolford, Auditor
   Brennan Kraje, Statistician
   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-06-16127.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
